<html>
<title> - MISMANAGEMENT OF POW/MIA ACCOUNTING</title>
<body><pre>[Senate Hearing 113-293]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 113-293

 
                 MISMANAGEMENT OF POW/MIA ACCOUNTING

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON FINANCIAL AND
                         CONTRACTING OVERSIGHT

                                 of the

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             AUGUST 1, 2013

                               __________

         Available via the World Wide Web: http://www.fdsys.gov

       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs


                                 ______

                   U.S. GOVERNMENT PRINTING OFFICE 
82-747                     WASHINGTON : 2014
____________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="82e5f2edc2e1f7f1f6eae7eef2ace1edefac">[email&#160;protected]</a>  



        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                  THOMAS R. CARPER, Delaware, Chairman
CARL LEVIN, Michigan                 TOM COBURN, Oklahoma
MARK L. PRYOR, Arkansas              JOHN McCAIN, Arizona
MARY L. LANDRIEU, Louisiana          RON JOHNSON, Wisconsin
CLAIRE McCASKILL, Missouri           ROB PORTMAN, Ohio
JON TESTER, Montana                  RAND PAUL, Kentucky
MARK BEGICH, Alaska                  MICHAEL B. ENZI, Wyoming
TAMMY BALDWIN, Wisconsin             KELLY AYOTTE, New Hampshire
HEIDI HEIKAMP, North Dakota

                   Richard J. Kessler, Staff Director
               John P. Kilvington, Deputy Staff Director
               Keith B. Ashdown, Minority Staff Director
                     Laura W. Kilbride, Chief Clerk
                     Lauren Corcoran, Hearing Clerk


          SUBCOMMITTEE ON FINANCIAL AND CONTRACTING OVERSIGHT

                  CLAIRE McCASKILL, Missouri, Chairman
CARL LEVIN, Michigan                 RON JOHNSON, Wisconsin
MARK L. PRYOR, Arkansas              JOHN McCAIN, Arizona
MARY L. LANDRIEU, Louisiana          MICHAEL B. ENZI, Wyoming
MARK BEGICH, Alaska                  KELLY AYOTTE, New Hampshire
TAMMY BALDWIN, Wisconsin

                 Margaret Daum, Majority Staff Director
                 Rachel Weaver, Minority Staff Director
                       Kelsey Stroud, Chief Clerk


                            C O N T E N T S

                                 ------                                
Opening statement:
                                                                   Page
    Senator McCaskill............................................     1
    Senator Ayotte...............................................     3
Prepared statement:
    Senator Ayotte...............................................    27

                               WITNESSES
                        Thursday, August 1, 2013

Major General Kelly K. McKeague, Commander, Joint POW/MIA 
  Accounting Command.............................................     5
Major General W. Montague Winfield, Ret., Deputy Assistant 
  Secretary of Defense for POW/Missing Personnel Affairs, and 
  Director, Defense Prisoner.....................................     6
John A. Goines, III, Chief, Life Sciences Equipment Laboratory, 
  U.S. Air Force.................................................     7

                     Alphabetical List of Witnesses

Goines, John A., III:
    Testimony....................................................     7
    Prepared statement...........................................    44
McKeague, Major General Kelly K.:
    Testimony....................................................     5
    Prepared statement...........................................    30
Winfield, Major General W. Montague, Ret.:
    Testimony....................................................     6
    Prepared statement...........................................    41

                                APPENDIX

Chart referenced by Senator McCaskill............................    47
Veterans of Foreign Wars of the United States, prepared statement    48
Vietnam War POW/MIA, Ann Mills Griffiths, prepared statement.....    50
National Security Commission, The American Legion, prepared 
  statement......................................................    53
Capability and Capacity Assessment of the Defense POW Executive 
  Summary Report.................................................    59
Responses to post-hearing questions for the Record:
    Mr. McKeague.................................................    83
    Mr. Winfield.................................................   114
    Mr. Goines...................................................   120


                  MISMANAGEMENT OF POW/MIA ACCOUNTING

                              ----------                              


                        THURSDAY, AUGUST 1, 2013

                                 U.S. Senate,      
        Subcommittee on Financial and Contracting Oversight
                      of the Committee on Homeland Security
                                        and Governmental Affairs,  
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:35 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Claire 
McCaskill, Chairman of the Subcommittee, presiding.
    Present: Senators McCaskill and Ayotte.

             OPENING STATEMENT OF SENATOR MCCASKILL

    Senator McCaskill. This hearing will come to order, and I 
apologize for my cold before I begin. I will try not to sniffle 
or cough into the microphone too much today.
    We are here today to review the Department of Defense's 
(DOD) management of prisoners of war/missing in action (POW/
MIA) accounting.
    Our Nation has made a commitment to service members and 
their families that we will obtain the fullest possible 
accounting for the missing and recovery of remains for those 
who died serving our country. Today, the Defense Department 
estimates that there are about 83,000 missing U.S. personnel 
from past conflicts, including World War II, the Cold War, 
Vietnam, Korea, and the Persian Gulf War.
    Over the last 5 years, Congress has appropriated nearly 
$500 million for this effort. In 2012 alone, this amounted to 
over $132 million, approximately $50 million more than the 
previous year. Those added funds were intended to ensure that 
the Department had every resource it needed to increase its 
capacity to account for 200 missing persons by 2015, a 
requirement set by Congress in 2009.
    On average, however, the accounting community has 
identified and accounted for only 72 previously missing 
personnel per year. Although Congress has more than doubled the 
overall budget of the Joint POW/MIA Accounting Command (JPAC), 
over the last 5 years, the additional funds have not yet 
yielded any significant increase in identifications.
    We cannot put a price tag on this mission, but we can and 
must ensure that hundreds of millions of dollars that taxpayers 
have earned are being spent as efficiently and effectively as 
possible.
    According to a recent report by the Government 
Accountability Office (GAO), the Defense Department's capacity 
to account for missing personnel is, ``being undermined by 
longstanding leadership weaknesses and a fragmented 
organizational structure.'' In addition, disagreements and lack 
of communication between the various Defense Department 
commands and offices involved in the accounting mission have 
harmed the Department's ability to improve its capacity as 
required by Congress.
    GAO also identified significant duplication and overlap 
between JPAC and the Defense Department's Defense Prisoner of 
War/Missing Personnel Office (DPMO), and between JPAC's Central 
Identification Laboratory (CIL) and the Air Force's Life 
Sciences Equipment Laboratory (LSEL).
    The Subcommittee has also reviewed an internal report 
regarding JPAC's internal operations. This report, which was 
prepared at the request of JPAC's commanders by a Fellow hired 
by JPAC's Central Identification Laboratory, found that JPAC's 
Research and Analysis Division was so mismanaged that it 
risked, ``total failure'' of JPAC's mission. It called the 
Division's processes acutely dysfunctional and also found that 
JPAC had wasted or abused taxpayer funds on travel and, 
``military tourism.''
    This report was banned by the former commander of JPAC and 
its findings did not become widely known until earlier this 
summer. These findings are deeply disturbing. However, since 
announcing this hearing, the Subcommittee staff has heard from 
nearly a dozen current and former members of JPAC, DPMO, and 
experts in the accounting community who have questioned this 
report's independence and its accuracy.
    I wish to state clearly at the beginning of this hearing 
that the Subcommittee does not have a dog in this fight. I am 
not here to take the side of JPAC, the DPMO, the Central 
Identification Laboratory, or Research and Analysis. I am here 
to give a loud wake-up call to everyone involved that it is 
time to put your squabbles aside for the good of the mission 
and the good of our Nation. It is unacceptable for 
dysfunctional bureaucracy to impede our efforts to bring 
closure to the families of missing personnel.
    To all of those in the accounting community who work every 
day to find the missing, to identify remains, and to bring 
peace of mind to families, I thank you. You should be proud of 
the work that you do, and you should serve as an example to 
those throughout the chain of command whose pettiness, 
negligence, or willful ignorance allowed these problems to 
develop and remain uncorrected for so many years.
    I hope by the end of this hearing we will understand more 
about the issues the accounting community is facing. I intend 
to raise some hard questions, including: How many of the 
missing personnel can reasonably be recovered and identified? 
And what will it actually cost to achieve this mission? We need 
to get these numbers straight. The family members of the 
missing deserve honest answers about what is feasible.
    What we may not know is how quickly the Department can fix 
these problems. I assure you that both here in this 
Subcommittee and in the Armed Services Committee, I intend to 
stay on this until they do.
    I thank the witnesses for being here and I look forward to 
their testimony.
    I am pleased today to be joined by Senator Ayotte, whom I 
serve with on the Armed Services Committee. My Ranking Member 
could not be here today, so she is sitting in that seat and I 
could not be more thrilled with that, and I will now turn it 
over for her comments.

              OPENING STATEMENT OF SENATOR AYOTTE

    Senator Ayotte. Thank you so much, Madam Chairman. It is an 
honor to be here with you this morning, and I enjoyed it when 
we had the opportunity to be the Chair and Ranking Member on 
the Readiness Subcommittee in the Armed Services Committee.
    I think since we both serve on not only this Committee but 
the Armed Services Committee, I want to echo your commitment to 
making sure that we address the problems that have been 
identified by the internal report, by the GAO report, and that 
this must end, to make sure that we can do what is right for 
those that we have left behind and bring them home. So it is an 
honor to be here.
    As you know, the Soldier's Creed includes the following 
words: ``I will never leave a fallen comrade.'' These words, 
memorialized and memorized by our soldiers, are just as true 
for our entire Nation. Coming from a military family, and as I 
mentioned, as a member of the Armed Services Committee, I am 
determined, as I know the Chair is as well, to make sure that 
our Nation does not waver from this solemn vow.
    That is why today's hearing is so important. We have a 
solemn duty to recover the remains of our service members who 
made the ultimate sacrifice in distant battlefields to preserve 
our freedoms and our way of life. They have earned our enduring 
gratitude and stand as a lasting model of patriotism and 
courage to us all, and their sacrifice has directly contributed 
to the freedom and safety that we all enjoy today. That is why 
it is important that we live up to the words on the POW/MIA 
flag: ``You are not forgotten.''
    According to the Defense Prisoner of War/Missing Personnel 
Office, we cannot account for over 73,000 Americans who served 
in World War II, 8,000 who served in the Korean War, 125 in the 
Cold War, and over 1,600 in the Vietnam War. There have been 37 
American POWs since 1973 and all have been returned except one, 
Sergeant Bowe Bergdahl. In my home State of New Hampshire, we 
are still waiting to learn the fate of six service members from 
the Vietnam War and 43 from the Korean War who remain 
unaccounted for.
    We entrust the Joint POW/MIA Accounting Command to work on 
behalf of the American people to fulfill our moral obligation 
to find and bring home the remains of American heroes who 
served overseas. In light of the great trust that we place not 
only in you, General McKeague, but in each of you, I am 
incredibly disturbed, as the Chair has mentioned, with not only 
the internal findings of the report that was done within the 
DOD, but with the recent GAO report, and I think the Chair hit 
it well when she talked about the leadership weaknesses 
identified in the GAO report.
    But what bothered me most was reading about the petty 
squabbling between the three agencies which each of you has 
been charged with leadership. That is not the way we do things, 
and we owe it not only to those fallen heroes that we need to 
bring home to their families and to the American people that 
the squabbling end, that we get to the bottom of this, that we 
understand that the resources that have been given to you that, 
as the Chair mentioned, have increased, but the outcome has 
either stayed the same or decreased in terms of bringing our 
fallen heroes home, that we can do so much better.
    Having served on the Armed Services Committee and hearing 
about the disputes between your agencies, it really troubled 
me. So we have to get to the bottom of this, and I want a 
commitment from each of you that this squabbling will end, that 
we will work together, that we will drive efficiencies to make 
sure that we are all working for the same result, and that is 
to bring our fallen heroes home, to be honest and truthful with 
their families, to make sure that their families know that they 
are not forgotten.
    And so the reports, they raise serious questions. I know 
the Chair will have many important questions for all of you, as 
will I. And I want to thank each of you for being here today. 
We need to walk out of here knowing--I know this will be one 
hearing, but I think this will be one of many to make sure that 
we get this right. Thank you.
    Senator McCaskill. Thank you, Senator Ayotte.
    Let me introduce our witnesses. Major General Kelly 
McKeague is the Commander of the Joint POW/MIA Accounting 
Command, which supports the Department of Defense personnel 
accounting mission in analysis, search and recovery, and 
laboratory investigations. General McKeague assumed command in 
October 2012. General McKeague began his military career 
serving as a civil engineering officer in various assignments 
in the U.S. Air Force. He has also served as Chief of Staff and 
Assistant to the Chairman of the Joint Chiefs of Staff for 
National Guard matters.
    W. Montague Winfield is the Deputy Assistant Secretary of 
Defense (DASD) for POW/Missing Personnel Affairs and Director 
of the Defense POW/Missing Personnel Office. He is responsible 
for leading the national effort in the fullest possible 
accounting of American personnel missing as a result of hostile 
action. In addition to having served his distinguished 31-year 
Army career, Mr. Winfield was also the first Commanding General 
of the Joint POW/MIA Accounting Command.
    John Goines is the Chief of the Life Sciences Equipment 
Laboratory.
    Thank you, all three, for being here. It is the custom of 
this Subcommittee to swear all witnesses that appear before us, 
so if you do not mind, I would ask you to stand and take the 
following oath.
    Do you swear that the testimony you will give before this 
Subcommittee will be the truth, the whole truth, and nothing 
but the truth, so help you, God?
    General McKeague. I do.
    General Winfield. I do.
    Mr. Goines. I do.
    Senator McCaskill. Thank you all very much.
    General McKeague, we will begin with your testimony.

  TESTIMONY OF MAJOR GENERAL KELLY K. MCKEAGUE,\1\ COMMANDER, 
                JOINT POW/MIA ACCOUNTING COMMAND

    General McKeague. Good morning, Chairman McCaskill, Senator 
Ayotte. It is a privilege to appear before you today, and I 
respectfully request my written testimony be included for the 
record.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. McKeague appears in the Appendix 
on page 30.
---------------------------------------------------------------------------
    When I took command of the Joint POW/MIA Accounting Command 
almost 10 months ago, I realized that JPAC could be operated 
more efficiently and effectively. Since then, my team and I, in 
concert with DASD Winfield and all our partners in the 
personnel accounting community, have worked hard to improve how 
we account for our missing Americans from past conflicts.
    The weight of our sacred obligation, as you mentioned, 
Senator Ayotte, is no better captured than in a remark a sister 
of an Army helicopter pilot missing in Vietnam recently shared 
with me. She said, ``The vast majority of the families who are 
involved have tremendous trust in your mission and in those who 
work our cases.'' As JPAC's Commander, I have the distinct 
honor to lead a talented and dedicated team of professionals.
    Our noble mission is global in scope, with investigations 
needing painstaking research, recoveries challenged by 
inhospitable environments, and tougher identifications 
demanding a world class scientific enterprise. As responsible 
stewards of Federal funding, we are continuously seeking 
efficiencies and optimizing cost effectiveness.
    In addition to optimizing our three mission sets, much of 
my focus over the past 10 months has been to improve 
communication, coordination, and collaboration, both within the 
Command and with our external partners, to ensure JPAC is 
structured to effectively and efficiently accomplish our 
mission, to establish processes which will sustain and improve 
the organization and mission into the future, and to provide a 
quality work environment for the men and women of JPAC.
    Unquestionably, there are areas within JPAC that offer 
opportunities for improvement and we make consistent efforts to 
identify and address these areas. Given the complexities of our 
worldwide mission, it is clear we must continue to strive to 
improve our efficiencies and performance. Still, sequestration 
and a civilian hiring freeze and furloughs do present us with 
steeper challenges.
    However, I am confident JPAC's professionals will sustain 
our priorities with fewer resources and balance requirements to 
meet mission objectives. Most importantly, we will not waver in 
our commitment to the families of our mission heroes, our 
veterans, and the American people, which is a moral imperative 
of the fullest possible accounting of those who lost their 
lives in service to this great Nation.
    Prominently on a wall in JPAC's headquarters is President 
Calvin Coolidge's sage advice: ``The Nation which forgets its 
defenders will be itself forgotten''. The dedicated men and 
women of JPAC endeavor to see that this never happens.
    Madam Chairman and Senator Ayotte, thank you again for the 
opportunity to appear before you, and more importantly, for 
your support of this noble and critical mission. I welcome the 
questions you might have.
    Senator McCaskill. Thank you, General.
    Mr. Winfield.

   TESTIMONY OF MAJOR GENERAL W. MONTAGUE WINFIELD, RET.,\1\ 
DEPUTY ASSISTANT SECRETARY OF DEFENSE FOR POW/MISSING PERSONNEL 
    AFFAIRS, AND DIRECTOR, DEFENSE PRISONER OF WAR/MISSING 
                        PERSONNEL OFFICE

    General Winfield. Chairman McCaskill, Senator Ayotte, thank 
you for the opportunity to speak about what the Department of 
Defense is doing to improve the Department's efforts to achieve 
the fullest possible accounting for our missing DOD personnel 
and provide answers to their families. I look forward to 
discussing the responsibilities of the various members of the 
Department's accounting community as well as the specific 
collaboration between the Defense Prisoner of War/Missing 
Personnel Office, and the Joint Prisoner of War/Missing in 
Action Accounting Command.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Winfield appears in the Appendix 
on page 41.
---------------------------------------------------------------------------
    Based on my experience as the first Commander of JPAC, I 
came to my current position well aware of the challenges I 
would be confronting. I know that the Department's personnel 
accounting communities suffer from organizational and structure 
weaknesses which have been cited in other reports and studies. 
Many of these structural flaws relate to the primary problem 
recently identified by the U.S. Government Accountability 
Office.
    Over the past year, Major General McKeague, Mr. Goines, and 
I, along with others in the personnel accounting community, 
have made significant strides to improve our unity of effort. 
But this is an issue that clearly needs further work.
    As I strongly recommended, the Department has begun the 
process of implementing all nine of the GAO recommendations. 
Some of the issues raised in the internal draft JPAC Efficiency 
Report may require additional attention and investigation. In 
fact, last week, the Under Secretary of Defense for Policy 
requested that the DOD Inspector General initiate an immediate 
investigation into the allegations of fraud, waste, and abuse. 
Additionally, the Under Secretary requested that the Director, 
Cost Assessment and Program Evaluation (CAPE), undertake a 
review of the organizational structure the Department employs 
to accomplish this critical mission. Fortunately, the GAO has 
helped us identify in a thorough and objective manner what the 
Department needs to do to improve our performance of the sacred 
mission of accounting for our missing personnel.
    I would like to describe recent and upcoming activities 
regarding missing personnel. Last week, our Nation commemorated 
the 60th anniversary of the Korean War Armistice at Arlington 
Cemetery, where the President took the opportunity to recognize 
the family of a missing service member whose remains had been 
just identified.
    Next week, I will be hosting the Department's annual 
meeting for family and members of American service members 
missing from the Korean War and Cold War. We expect 
approximately 430 family members from across the country to 
attend the 2-day meeting that we will have the opportunity to 
brief them on our efforts and to account for their missing 
loved ones.
    On July 12, I led a meeting in Salt Lake City, Utah, where 
we sat down and briefed 80 family members of missing service 
members from World War II, from the Korean War, and the Vietnam 
War. Likewise, I had the great honor to address the Veterans of 
Foreign Wars (VFW) in July, as well as the National League of 
Families of American Prisoners and Missing in Southeast Asia in 
June. Major General McKeague was with me at all of these 
meetings.
    I know he agrees that the families and our key external 
partners are as determined as ever to help us improve the way 
we account for our missing personnel, and just as importantly, 
to help us improve how we provide answers to their questions. 
Many of our families realize that we may never find our loved 
ones. But they look to us to help them understand what 
happened, and they do not want us to give up. It has been made 
clear to me that not knowing the fate of a missing loved one is 
as painful as never bringing them home.
    With that in mind, the lessons and experiences we have 
learned from our families and veterans have helped us shape the 
Department's view on how we account for those in Iraq and 
Afghanistan and how we support their families. I believe that 
with the support of Congress, the Department of Defense is 
taking steps to address longstanding challenges to efficiency 
and effectiveness in the personnel accounting community.
    Thank you, and I look forward to taking your questions.
    Senator McCaskill. Thank you very much.
    Mr. Goines.

   TESTIMONY OF JOHN A. GOINES III,\1\ CHIEF, LIFE SERVICES 
              EQUIPMENT LABORATORY, U.S. AIR FORCE

    Mr. Goines. Good morning, Chairman McCaskill and Senator 
Ayotte. I am John A. Goines III and I currently serve as the 
Chief of the Life Sciences Equipment Laboratory located at 
Wright-Patterson Air Force Base, Dayton, Ohio.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Goines appears in the Appendix on 
page 44.
---------------------------------------------------------------------------
    The Life Sciences Equipment Laboratory was established in 
1983. Its function was to investigate problems associated with 
life support equipment and resolve issues related to Air Force 
mishaps. More than 30 years later, its mission support 
continues to expand to meet taskings from the Department of 
Defense, the Armed Services, and those of allied foreign 
nations. We occupy some 13,000 square feet in Building 17 at 
the Air Force Life Cycle Management Center and fall under 
Headquarters Air Force Materiel Command, Wright-Patterson Air 
Force Base, Ohio.
    It is a unique facility within the DOD, and based upon 
comments received from numerous international visitors with 
regard to equipment studies and mission diversity performed, it 
is in all likelihood the only equipment laboratory of its type 
anywhere in the world.
    In 1988, the LSEL mission evolved from the LSEL Chief, who 
was approached by the Joint Casualty Resolution Center (JCRC), 
to examine equipment artifacts recovered in Southeast Asia to 
determine the feasibility of accounting for personnel based 
solely on the equipment. The LSEL conducted investigations, 
studies, and instructional programs related to a very broad 
range of military equipment, which are defined as life sciences 
equipment.
    In 1993, the LSEL was tasked by Congress and the Joint 
Chiefs of Staff to become a support agency of the Joint Task 
Force Full Accounting, renamed the Joint POW/MIA Accounting 
Command, in 2003, and subsequently other agencies, including 
the Defense Prisoner of War/Missing Personnel Office. This 
resulted in the establishment of a dedicated LSEL POW/MIA 
mission, which is manned by specialists whose work involves the 
accountability of missing Americans from conflicts like the 
Indochina War Theater, the Korean Conflict, the Cold War, and 
the worldwide theater of World War II. Although the mission 
coverage is complex and challenging, the staff remains 
dedicated to enhancing aviation safety, sustaining and 
improving this Nation's military resources, and accurately 
resolving the status of our missing personnel for their 
families.
    Within this context, since 1994, the LSEL has supported 194 
POW/MIA cases and has accounted for the presence of 206 missing 
individuals out of 349 being sought. On average, the LSEL 
supports 10 cases per year, with an annual operating budget of 
$250,000.
    The LSEL staff consists of a cadre of specialists who have 
extensive background in numerous types of life sciences 
equipment types deployed by American military services. Through 
the use of comprehensive technical library and a large 
collection of equipment reference exhibits maintained by the 
LSEL, the analysts endeavor to match submitted artifacts to the 
type of equipment and specific systems from which the artifacts 
have originated from, identify its service applicability as 
well as the time period it was used. Further testing can then 
be applied, often employing state-of-the-art equipment along 
with the full resources of other laboratories and specialists 
at the Air Force Life Cycle Management Center to enable 
artifact identification to be confirmed.
    Finally, all equipment and scientific test results are 
translated into determinations about the presence of missing 
personnel. Accordingly, an identified artifact, like a piece of 
air crew flight suit, can help reconstruct the pattern and type 
of its host structure, reveal information about which military 
service utilized it, disclose other details about when it was 
used and with what aircraft, until, along with all other 
artifacts and damage assessments, it provides an overall image 
of what the evidence supports about its previous user and their 
probable status.
    Based upon such work, the LSEL and staff are totally 
dedicated to the resolution of the POW/MIA issue and to 
supporting other agencies involved in this highest national 
priority endeavor, to fully account for our Nation's missing 
personnel.
    I thank you for the opportunity of providing opening 
remarks and I await any questions that you have for me at this 
time.
    Senator McCaskill. Thank you very much.
    I think there are three major areas that I would like to 
try to get covered today. One is, who is really in charge and 
is the structure appropriate? Second, what are we going to do 
about the infighting and the turf battles? And third, have we 
set realistic goals and are we using taxpayer dollars in the 
most efficient way possible?
    Let us start with the leadership question. I have to tell 
you that as I began preparing for this hearing, echoes of 
Arlington began resonating with me, because when we looked at 
the problem at Arlington National Cemetery, there was a lack of 
oversight that was really bred by no one being in charge. It 
was very easy to finger point because there was not a clear 
chain as to who was responsible.
    And I will put this chart\1\ in the record, but I want to 
hold it up because the interesting thing about this is every 
red box has a role. Look at that. I mean, is it any wonder that 
this is a mess?
---------------------------------------------------------------------------
    \1\ The chart referenced by Senator McCaskill appears in the 
Appendix on page 47.
---------------------------------------------------------------------------
    And the frustrating thing about this is that back in August 
1993, the Senate Select Committee on POW/MIA Affairs issued a 
report, and I am going to read from the report. ``The U.S. 
Government's process for accounting for Americans missing in 
Southeast Asia has been flawed by a lack of organizational 
clarity, coordination, and consistency.'' That was 20 years 
ago. The notion that we are at that same place now is just a 
real head-scratcher for me.
    Last year, the House Armed Services Committee pointed this 
out. GAO points it out. So what can you tell me about the 
Department's plans? It is my understanding that all of you, 
really, if you look at it, the only person you have in common 
that you report to is, in fact, Secretary Hagel, is that 
correct? Does anybody disagree with that assessment?
    General Winfield. Senator, I agree with you.
    Senator McCaskill. OK. By the way, none of you are in the 
same down boxes here, and there are a lot of layers between you 
and Secretary Hagel. What can you tell me about plans to change 
this ridiculous organizational structure that is supposed to be 
working on a very focused problem? It is not like this problem 
is disparate. It is not like we are talking about, lift needs 
for the Air Force or we are talking about logistic needs for 
the Army. We are talking about locating the missing remains, 
which involves, obviously, science, it involves personnel, it 
involves cooperation of the various branches, but if we do not 
get this fixed, they are going to be back here in 20 years 
yelling at you guys.
    So, tell me, General McKeague, what are the plans right now 
for reorganizing this in a way that we can hold somebody 
accountable?
    General McKeague. Chairman McCaskill, as you know, the GAO, 
that was their first recommendation of the night, was to look 
for the Department to consider some sort of consolidation. I do 
not look at this necessarily from the standpoint of this 
being--we all have different roles. My role is clearly the 
operational arm of the accounting community. I do not delve in 
policy. I do not delve in notification to families. But I know 
my partners do. And so I can assure you that as part of the 
Department's implementation of the GAO's recommendations, 
recommendation No. 1 will be looked at seriously.
    Senator McCaskill. Well, what does that mean?
    General McKeague. I think we will----
    Senator McCaskill. Who is looking at it, and what is the 
timeline?
    General McKeague. Dr. Miller--this is more for DASD 
Winfield, but I will answer what I know. Dr. Miller has 
instituted a review of the GAO recommendations. As you know, 
the Department has accepted eight of the nine and a partial 
concurrence of the ninth, and we are implementing many of those 
recommendations. Some of them have already been implemented. 
And I would view the consolidation question to be at the top of 
the list.
    Senator McCaskill. OK. That is not completely reassuring to 
me, and I will followup with Dr. Miller for a timeline. But I 
think we need to know what the specific response to the 
recommendation is going to be. And this is not something that 
should take 2 years to study. This is something that somebody 
ought to be able to tell us, we are going to look at the 
organizational structure and we are going to make 
recommendations for change by this date, and that is what I am 
looking for.
    Do either of you have any input on a date specific that we 
can look for some kind of plans to--and I get that we all have 
different missions here, but you cannot argue with the fact 
that even within your command, you have two departments that 
are fighting like 12-year-olds.
    General Winfield. Senator, if I may, the Department has, in 
fact, accepted all of the recommendations from the GAO. And in 
response to the GAO and also the internal JPAC report, the 
Under Secretary of Defense has directed that two reviews be 
conducted. First, he has directed that the DOD IG take a look 
at all malfeasance. Second, he has directed that CAPE takes a 
look at the organizational structure of this organization, of 
the entire accounting community.
    He has not put a timeline on exactly when we will have the 
results of these reviews, but I will assure you that it is not 
going to be a very extended period.
    Senator McCaskill. OK. Well, you can--and we will--I am 
sure that Senator Ayotte will join me in a letter to Dr. 
Miller. Dr. Miller needs to know, we need a date----
    General Winfield. Yes, ma'am.
    Senator McCaskill [continuing]. Because we are going to 
hold him accountable to the date. And I think we will also 
direct the letter to Secretary Hagel, that this is something 
that demands some of his attention to get this thing 
straightened out once and for all.
    And it is not that I do not think you guys are not capable 
of working with each other. But the problem, the accountability 
piece of this--and this is what we found over and over in 
Arlington--that when there is a problem, it is way too easy for 
you guys to fade with a finger pointing. Well, that is CIL, or 
that is over in DPMO, or, oh, that is in JPAC. If we get this 
concentrated with some kind of very clear chain of authority, 
then we will do a much better job of making sure that we are 
not getting excuses as opposed to real problems that we need to 
help you solve.
    I have a lot of other questions, but I will turn it over to 
Senator Ayotte now.
    Senator Ayotte. I want to thank the Chair, and let me just 
followup on what Senator McCaskill just asked about.
    The 2010 Defense Authorization, in fact, directed this very 
issue. In fact, it asked the Secretary of Defense to implement 
a comprehensive, coordinated, integrated, and fully resourced 
program to account for missing persons. I mean, that is an 
excerpt from it right there. Section 541 set a goal of asking 
for this plan, a comprehensive, coordinated plan, be submitted 
so that we could accomplish, as you know, recovery of 200 
remains each year to bring back to their families.
    And one of the things that the GAO identified was the fact 
that because of the problems with the organizational structure 
and the disputes, that, in fact, as I understand it, JPAC and 
DPMO actually developed competing plans. Is that right?
    General Winfield. Senator, based on information that we 
received from both of our predecessors, we know that to be 
true.
    Senator Ayotte. OK. So, here we have where we have already, 
as a Committee, said in 2010 that, clearly, a plan is needed, 
and now the Chair has already identified that this goes back 20 
years where this very same issue has been raised, and you can 
understand why we hear this today with no deadline, thinking, 
when is something going to change, because if we do not receive 
the coordination and plan that has already been asked for 20 
years ago, was asked for clearly in 2010, with no deadline for 
how this structure is going to change, and you both have 
competing plans as to who should be in charge and how it should 
work, this has just got to stop.
    And I will join the Chair in this letter because I think 
Secretary Hagel has to focus on this, as well, and make sure 
that we receive as soon as possible what the new organizational 
structure will be of one that eliminates the squabbling, that 
eliminates the competing plans, makes a decision that is going 
to accomplish what all of us want to accomplish in bringing the 
remains home.
    So, can you both tell me about these competing plans? Have 
the two of you communicated about these competing plans, and 
have you yet at your level as leaders--and, by the way, 
General, I know you have not been in this command long and you 
have adopted many of these issues, so you have a real 
opportunity, as well--all of you do--to set this right. But 
have the two of you gotten together on these competing plans 
and talk through what you think as leaders of DPMO and as JPAC 
what should happen?
    General Winfield. Senator, a couple points. We talked about 
a timeline. There is one portion of the timeline that Dr. 
Miller has put in place. He set a 90-day limit on the response 
of the review. After the review is actually conducted, 
obviously, the final decisions would have to be made. I can, in 
fact--when you talk about competing plans, again, when we--I 
have been in the position a little over a year, and when we 
both assumed our positions----
    Senator Ayotte. So you are relatively new to this, too, as 
well.
    General Winfield. Yes, I am. There is only one plan that 
was on the books, and that was a plan that requested resources. 
And of the two plans that you are referring to, the JPAC plan 
was the one that was agreed to.
    So, when we talk about competing efforts, the first thing 
that I was directed to do and agreed with my boss, Dr. Miller, 
was, first, to bring the accounting community together. The 
second thing he asked me to do is increase transparency. The 
third was to support the GAO.
    Immediately upon taking my position, we established a 
planning group. It was a joint planning group that had members 
of all of the accounting community, and their goal was to take 
a look at creating the capacity and capability of this plan 
which gets at the requirement that has been levied upon us. The 
requirement is to increase our capacity and capability by 2015 
with a subsequent requirement to eventually be able to identify 
200.
    It is important to note that there is no immediate return 
on investment. If we are funded to increase our 
identifications, there is a long process. First of all, there 
is a lot of research and analysis that is conducted, followed 
by an extensive research or investigation of the specific area, 
the lost area. Then there is a recovery, and often times it 
might take more than one investigation, more than one recovery. 
And, finally, it goes to the lab for identification. So it 
takes time before there is a return.
    Senator Ayotte. And certainly, Mr. Winfield, I do not 
dispute that this process takes time in terms of the proper 
recovery of these remains. But I do not see, unless we get at 
the fundamental structural issues that the Chair has raised so 
that we are all working together instead of spending the time 
we are duplicating resources or not having clear chains of 
authority, how we could possibly reach the goal and most 
effectively do this on behalf of the American people.
    Would you agree with me on that, that if the structural 
barriers are there, if people are not all working together in 
the best way, then how--obviously, no matter what time it takes 
in terms of the processes, then we are not going to be able to 
effectively achieve that. Would both of you agree with me on 
that?
    General Winfield. We have done an extremely good job at 
unity of effort. We work together on a daily basis. I 
communicate with Major General McKeague every day.
    Senator Ayotte. Well, let me just get at a more fundamental 
question. Do you disagree that with the way things are right 
now, you have had these two competing, obviously, that came up 
through DPMO and JPAC to address the 2010 National Defense 
Authorization Act (NDAA). You have seen the organizational 
structure. Do you agree that things need to change in the 
organizational structure to make sure we get this right?
    General Winfield. Senator, we agree with the 
recommendations that were made by the GAO that there is a need 
to take a look at our organizational structure.
    Senator Ayotte. So, just a look.
    General Winfield. Again, it is important that the review is 
conducted, and CAPE is going to take a good look and a review 
and an assessment of our organizational structure.
    Senator Ayotte. See, here is what worries me. You have been 
looking and looking----
    Senator McCaskill. For 20 years.
    Senator Ayotte [continuing]. For 20 years, and it is just 
very evident--I thought the Chair's point was well taken that 
the lines of authority here do not make clear authority, so 
that would be the most efficient way to drive the results, as 
identified in the GAO report and identified 20 years ago and, 
obviously, focused on in the 2010 NDAA, and I am sure many 
others that we did not pull up today.
    So, we can keep looking and looking, but we need to go 
beyond looking. We need results, and that is why we are so 
concerned about driving a date on this of making sure that we 
get an outcome, of not just--I mean, I do not want to be here 
in the Defense Authorization asking the very same questions 
without some results, and I am sure neither of you do, either. 
So, that is what--when I hear ``look,'' it really raises flags 
for me.
    And, General, I do not know if you have a comment. I know 
my time is up, but----
    General McKeague. Senator, if I could. The competing plans 
were back shortly after the NDAA was introduced and the goal 
was established. There were competing plans for resources. I 
can assure you that there are no competing plans today. We have 
an integrated plan. DASD Winfield took the lead on a 
capabilities and capacity plan for 2014. It included all of the 
partners. And I would also clarify that the cooperation and 
coordination between JPAC and DPMO, the two largest partners 
within the accounting community, has never been better. I have 
complete trust in DASD Winfield. As he said, we communicate 
almost daily. And I do not see competing plans in today's 
construct.
    Senator McCaskill. I just think it would be helpful if you 
had the same boss. I just think it is confusing, and I will 
just tell you that I know you guys are going to take a look at 
it, and I know it is very hard to make changes in the 
organization. Speaking from a lot of experience in the 
contracting field, we actually managed to get a contracting 
command opened because of the severe problem.
    I think there are two ways to get this reorganized, you all 
doing it in the way you think is best or us doing it for you. 
And I can assure you that Senator Ayotte and I will do it for 
you if you cannot do it yourself, because we need to know who 
the boss is.
    I do not know if you are at fault or you are at fault, and 
you do not even report to the same people. So your boss may be 
telling you ``A'' and your boss may be telling you ``B,'' and 
then you guys are down here trying to work it out. It just does 
not make sense.
    Let me talk about some of the infighting within JPAC, 
General McKeague. Does CIL have operational responsibilities at 
all?
    General McKeague. Yes, ma'am. They are the identification 
operations arm of JPAC.
    Senator McCaskill. So, both research and analysis and CIL 
have operational responsibilities?
    General McKeague. They both work for me, ma'am.
    Senator McCaskill. OK.
    General McKeague. There are three mission sets within JPAC. 
There is the searching for, research, and analysis. There is 
the recovery, led by our investigations recovery teams. And 
then there is the identification part, led by the Central 
Identification Lab.
    Senator McCaskill. Other than the personal attacks in Paul 
Cole's report, do you think his analysis of the dysfunction 
within JPAC is accurate?
    General McKeague. Ma'am, I would say that we do have issues 
in terms of efficiencies. I think Dr. Cole was astute in 
pointing out that we needed to improve our procedures and 
efficiencies, and we have. And I would say that he also was 
very helpful to us in talking about the need to improve the 
production of leads.
    Senator McCaskill. Were there parts of the report that you 
thought were inaccurate?
    General McKeague. Ma'am, I would disagree with some. For 
instance, archival research was nonexistent. I would disagree 
with that. That we had a stagnated operations plan and that 
there were multiple visits to Southeast Asia sites that were 
not justified, those are just some of the things I would 
disagree with.
    Senator McCaskill. We have heard, the Subcommittee--and I 
am going to talk about the whistleblowers, but we have also 
heard numerous complaints regarding CIL's management. After 
hearing from so many people with the same complaints, we kind 
of had to wonder if there really is a significant problem with 
the management at that part of your command. There are also 
apparently a very high number of discrimination and Equal 
Employment Opportunity (EEO) complaints that are pending. What 
is your take on that, General?
    General McKeague. Ma'am, when I first arrived 10 months 
ago, I found that we were in desperate need of attention toward 
communication, collaboration, and coordination. There was 
disunity within the command. That has been my priority, to 
unify the command. It has been my priority to improve morale, 
and I believe that we have improved it. Are there squabbles 
between the approaches that both divisions take? Absolutely. 
But I think we can provide those in a professionally enhanced 
environment to be able to resolve those without bomb throwing 
and finger pointing.
    Senator McCaskill. I want you, and we will have questions 
for the record, but I do want you to keep us posted on the 
progress of how you feel that you are solving the problems 
within your command, because it appears--as we began down this 
road, we assumed that the Cole report was being squashed 
because the Cole report was critical. Well, now as we have 
looked at it, part of it is that there was such wide 
disagreement within your command as to whether the Cole report 
was ginned up by Mr. Holland in order to try to make the other 
two parts of your command look bad, that this was all about 
promoting one part of your command at the expense of another 
part of your command because there was this squabbling going 
back and forth.
    I hate it that we are getting into this level of 
micromanaging within your command, but this all floated to the 
surface when we began planning this hearing. I mean, we answer 
the phone and we listen, and it was shocking, the amount of 
input we were getting. I mean, frankly, on the whistleblower 
stuff, I mean, our phone just started ringing off the hook, and 
the complaints were both about DPMO and JPAC, both where you 
work, Mr. Winfield, and where you work, General McKeague. We 
are getting a lot of whistleblower complaints about retaliation 
about whistleblowing.
    Would both of you address the large number of claims of 
retaliation within your offices.
    General McKeague. Ma'am, if I could address the part of--
you are asking for a commitment from me to keep you apprised. I 
can assure you that I will keep you apprised of the progress we 
make.
    I will share with you--and Senator Ayotte, you may know 
this--our mutual friend, Bill Reddel, put me in touch with the 
Arbinger Institute. It is a management consulting firm that 
looks at responsibility, collaboration, and influence. Bill 
Reddel, who is the Adjutant General of New Hampshire, has 
adopted Arbinger principles. I brought Arbinger in look at this 
exact same problem because, again, it is something that I saw 
firsthand that we--all the most talented scientists in the 
world, the most astute researchers and historians in the world 
would be totally ineffective if there was no trust, if there 
was no acceptance of personal responsibility, and if this was 
just a matter of everybody blaming everybody else, and that has 
been my focus, to get at it, to improve the morale and the 
environment within JPAC.
    Senator McCaskill. Well, I realize this is a little bit of 
pot calling the kettle black because we do way too much of that 
and try to make the other guy look bad around here rather than 
coming together and working together, so I realize that there 
are a lot of people watching this hearing who would go, ``Well, 
they have a lot of nerve.''
    But, that aside, it is--you have a choice when you are a 
leader. You can either lead by making the other guy look bad 
and, therefore, you look better, or you can lead by giving the 
other guy credit and communicating and then everyone does 
better. And I think what you have had in JPAC is the former and 
not the latter and I know you know you have a ways to go.
    General McKeague. Madam Chairman, I would agree with you, 
and I would also say that, just as you pointed out, we are all 
inextricably linked. The laboratory needs a functioning, 
effective research and analysis section just as much as 
research and analysis needs a fully functioning, effective 
laboratory. That is the irony, is everybody agrees that this is 
a passionate--this is a mission that they can be passionate 
about, and I share that passion. What they cannot agree is the 
approach on how to achieve and fulfill that passion.
    Senator McCaskill. I am going to briefly go on to Oak Ridge 
Institute for Science and Education (ORISE) fellows and then I 
will save my numbers questions for the next round, but I want 
to, if you would allow me, Senator Ayotte, I am confused about 
the ORISE Fellows. We began looking at the Fellows and it 
appears to me--are you paying Oak Ridge or the Department of 
Energy (DOE) for these Fellows?
    General McKeague. Ma'am, ORISE is an arm of the Department 
of Energy, so when we transfer our funding, it goes to the 
Department of Energy through ORISE.
    Senator McCaskill. Are they making money off this?
    General McKeague. ORISE?
    Senator McCaskill. Yes. Is the Department of Energy making 
money off this?
    General McKeague. Yes, ma'am. There is an 18 percent 
overhead.
    Senator McCaskill. So----
    General McKeague. Our annual payment to DOE through ORISE 
is $3.5 million, of which 18 percent for fiscal year (FY) 2013 
is overhead.
    Senator McCaskill. So why do you not just do the Fellows 
directly and save the 18 percent?
    General McKeague. Ma'am, I am not sure. This is a program 
that has started back in the 1940s. DOD is the largest 
recipient of ORISE Fellows. It is intended to advance the 
scientific enterprise. We use them with great results. We use 
them for projects and research in niche requirements within the 
laboratory.
    Senator McCaskill. Why do we not just hire really good 
archaeologists and scientists? Why are we paying an 18 percent 
overhead to another Department of government?
    General McKeague. Ma'am, it is actually a bargain from the 
standpoint that they do not receive a salary from us. They are 
actually----
    Senator McCaskill. Who are they receiving a salary from?
    General McKeague. They are actually paid a stipend, on 
average, about $80,000.
    Senator McCaskill. But, who is paying that? Is that the 
Department of Defense is paying that?
    General McKeague. No, ma'am. I believe it is ORISE. We just 
transfer the funding. But the bottom line is----
    Senator McCaskill. You mean the Department of Energy is 
paying it.
    General McKeague. I am sorry, Department of Energy.
    Senator McCaskill. Well, taxpayers are paying them.
    General McKeague. Yes, ma'am.
    Senator McCaskill. OK. We are going to take a close look at 
this. We are going to ask your cooperation for the record----
    General McKeague. Yes, ma'am.
    Senator McCaskill [continuing]. Because if it has been 
there since 1940 and there is an assumption you are getting a 
bargain, I do not like the idea that one Department of 
government is paying another Department of government an 18 
percent hit on locating and hiring people who are doing work 
for the government. Just because it has always been done that 
way does not mean it is the right way to do it, and I need to 
see a cost-benefit analysis as to why we are getting value out 
of that 18 percent, because they are not working at the 
Department of Energy, right?
    General McKeague. No, ma'am.
    Senator McCaskill. They are working full time in Hawaii, 
right?
    General McKeague. Yes, ma'am.
    Senator McCaskill. How many of the Fellows have been 
extended past the 5-year deadline?
    General McKeague. Ma'am, if I could take that for the 
record.
    Senator McCaskill. OK.
    General McKeague. We have currently 41 on our rolls right 
now.
    Senator McCaskill. Yes.
    General McKeague. And it provides a great recruiting and 
retention opportunity for us, as well, because in addition to 
the fact that we do not have them long-term, we can evaluate 
whether or not they would perform admirably as a full-time 
forensic anthropologist or archaeologist.
    Senator McCaskill. OK.
    General McKeague. And their stipend is still significantly 
less than what we would be paying them as a civil servant.
    Senator McCaskill. OK. Well, that is what I want to get to 
the bottom of.
    General McKeague. We will get you the information.
    Senator McCaskill. But you understand, when we start to 
look at it, I am going, wait. Well, what is this? And I know 
that they are supposed to have been graduating within 5 years, 
and Mr. Cole had not been in school in 20 years, and there were 
all kinds of issues about is this a way that you can get people 
hired that people know as opposed to getting the best and the 
brightest through this program. So I would appreciate those 
questions for the record.
    Sorry, Senator Ayotte.
    Senator Ayotte. No, that is fine.
    Getting back to the question that we had initially on the 
organizational structure and implementing the GAO's findings, I 
know that Dr. Miller is looking at this issue, and have you 
briefed Secretary Hagel on this issue, as well, because I do 
believe that this is an issue that needs a fire lit on it from 
the top to make sure that we are really driving this and we are 
not ending up in the same position. So I do not know if you 
have had an opportunity, General or Mr. Winfield, to brief the 
Secretary on this.
    General Winfield. Senator, I obviously have weekly 
conversations with Dr. Miller, but I would have to take for the 
record any conversation that he may have had with the Secretary 
of Defense.
    Senator Ayotte. No, I am just trying to get at it, because 
we are going to--we will direct this up to the Secretary level 
and, obviously, talk to Dr. Miller, as well, because I do 
believe that this has to come also from the top to make sure 
that we resolve these issues.
    I know that Senator McCaskill had asked you, General, about 
the internal Dr. Cole report, and one of the things that 
troubled me about it, I understand that there was a lot of 
internal dispute about the validity of it and why some of the 
criticisms were in it and did people have other motivations.
    But your predecessor, Major General Tom, his response to 
that report was telling to me. It really stuck out for me, 
because he sent that memo saying it was hereby disavowed and 
rejected in its entirety, that I do not find any merit in any 
of the conclusions or recommendations, and that there would be 
no further copying or sharing of the report, and concluded by 
saying the command will not consider any allegations, findings, 
or recommendations from the report.
    And I believe that Senator McCaskill had asked you about 
the report itself. Do you agree with that, that there is 
nothing valid in that report that we can take some lessons 
from, putting aside the motivation of it?
    General McKeague. Senator, before I answer that question, 
Madam Chairman, if I could clarify. The ORISE program was 
actually in 1992. I misspoke with adding 50 years to that. But, 
by all means, we will get you the information that you require.
    Senator McCaskill. Thank you.
    General McKeague. Senator, toward your question, I believe 
that we have implemented recommendations from Dr. Cole's 
report. Three I would like to highlight which I think are 
bearing fruit for us is the fact that we established an 
Investigation Decision Board to review field investigations 
that would come forward--to review research that would come 
forward as to whether or not it should qualify for a field 
investigation.
    We also reorganized the command and now we have most of 
our--not most, but all of our supporting deploying personnel 
under one division. They work investigations and recovery for 
the actual field missions.
    And the last thing I think was a positive from Dr. Cole's 
report is that we implemented adding a scientist, either a 
forensic anthropologist or archaeologist, to every field 
investigation team that went out, to look at the site, to map 
the site. In addition, we have assigned a military leader to 
help with logistics.
    So those are just three examples of things we have already 
implemented that were recommended within Dr. Cole's report.
    Senator Ayotte. Because that was a fairly defensive 
response of just saying, no, we are not going to consider 
anything in it. So I do appreciate that you have looked at it 
with the eye of how can we improve.
    General McKeague. Absolutely.
    Senator Ayotte. The one issue that was raised in it that 
stuck out with me, as well, was this idea of military tourism. 
And, in fact, one of the examples in the report identified 
the--I have no doubts that in order to recover remains from 
World War II, that you have to travel to Italy and many other 
places in Europe. But one had highlighted an incident in which 
three JPAC teams spent five nights in a luxury hotel, superior 
hotel in Rome, that was more than $500 a night. And when it was 
combined with the per diem to stay at this Hotel De La Minerve 
cost more than $18,000 for taxpayers.
    So, have you looked at that piece of it, too, as well, in 
terms of how taxpayer dollars are being used with the necessary 
travel that I do not dispute that JPAC needs to take in order 
to effectively recover remains?
    General McKeague. Ma'am, I cannot speak to that specific 
incident. However, I will tell you that as part of Dr. Miller's 
review of the draft JPAC internal report, the DOD Inspector 
General will be looking at all allegations of fraud, waste, and 
abuse within that report.
    Senator Ayotte. OK.
    General McKeague. Toward today, if I could fast forward, we 
have strict controls in place that prevent that from happening. 
Our operational planning function is led by our Director of 
Operations, a neutral party. They endeavor to have at least two 
operational planning teams that are made up of functional 
representatives from throughout the command to develop the 
mission set. There is then a decision brief that goes in front 
of my deputy to look at country coordination, to look at fiscal 
responsibility, to look at all issues regarding permitting. And 
then it finally comes to me for a confirmation briefing.
    So I believe, today, we have multiple levels of control 
whereby other aspects within JPAC, functional aspects, are 
involved in the decisionmaking process as to whether or not we 
are expending taxpayer dollars to advance a mission, whether it 
be an investigative one or a recovery one.
    Senator Ayotte. And is this process something you have put 
in place since you have come into this command?
    General McKeague. No, ma'am. It was put in place by my 
predecessor and I have just increased it and improved it as we 
have gone along. It is a constant reevaluation, a self-
assessment. We have after-action reports after the teams come 
back. We determine, what did we miss in the operational 
planning function, and we then adjust.
    Senator Ayotte. Well----
    General McKeague. It is a continuous improvement process.
    Senator Ayotte. And I hope that you will review the 
examples, the one that I just identified and others in there, 
to do an after-action report to make sure that taxpayer dollars 
were being used responsibly so that any corrections can be made 
that those types of things do not happen again.
    And I wanted to also ask, with regard to resourcing for 
what you have received with regard to JPAC. As I see it--and 
also with DPMO--certainly, you have seen some pretty 
significant increases. In fact, if you--let us put aside, 
obviously, where we are now with sequestration. But if you look 
from 2008 to 2012, for DPMO, it has been about a 26 percent 
increase. For JPAC, from 2008 to 2012, it has been a 93 percent 
increase. And I think that reflects the commitment that 
Congress has to wanting to make sure that there are adequate 
resources for the recovery efforts here.
    But then if I look at the numbers of remains that are 
recovered, there is not a reflection of the increase in 
resource. As I look at the numbers of remains recovered by 2008 
and 2012, it ranges from 62, 71, 74, 94, and 82. But there 
really does not seem to be the consistent increase in that 
piece of it along with the increase in resources.
    So, I think this resource issue of what you need for 
resources--I know that my time is up and I know that the Chair 
was going to ask about this, but I would like to get your 
perspective on, with the additional resources we have invested 
in this, how come we have not already seen--is it as a result 
of some of the issues identified in the GAO report, seeing 
better results, and what are we going to need going forward? 
So, I know that is a broad question and I know the Chair will 
probably have a number of questions in this area, but I think 
it is important that we get at these fiscal issues.
    General McKeague. Ma'am, our baseline budget in 2012, when 
the additional resources were added, was $71 million. Today, in 
fiscal year 2013, it is $89 million, and there was additional 
growth built in through the appropriation from Congress as 
endorsed by the Department where, over a 5-year plan, we were 
going to be added 253 personnel as well as $314 million 
additional dollars to our program. That has hit a speed bump 
because of the fiscal environment we face, but we are confident 
that with the balance between smaller resources as well as what 
we need to do and how we need to optimize our efficiencies and 
effectiveness, that we will be able to do so.
    Senator McCaskill. So, you are saying that, essentially, 
you have not seen a huge increase in resources?
    General McKeague. Madam Chairman, DASD Winfield alluded to 
this earlier in his remarks. There is a lapse time, a lead time 
between, A, training the people before they go out. The average 
forensic anthropologist needs anywhere from 9 to 12 months 
before they can go on a field mission. So there is a lead time 
for that. There is a lead time for the research and analysis. 
There is a lead time for the recovery. And then, obviously, 
once the remains come into the laboratory, it can range 
anywhere from several weeks to, in many cases, decades--in some 
cases, years or decades. Last month, we just identified a set 
of remains that were returned to us in the early 1990s from 
North Korea.
    Senator McCaskill. Let me ask you this. Do you feel 
confident, both Mr. Winfield and General McKeague, that you are 
going to be able to identify significantly more remains in the 
coming 2 to 3 years? I mean, will you get above 100? Will you 
get to 200? Do you believe you can do that?
    General McKeague. Ma'am, I think a realistic goal for us, 
which would be attainable, would be a 10-percent per year 
increase. If we were to do that, we could be at 125 
identifications within 5 years. I believe that is a realistic 
goal. I believe we will have the resources, even with this 
fiscal environment, by which to achieve that.
    Senator McCaskill. Mr. Winfield.
    General Winfield. Madam Chairman, in order to make an 
identification, numerous members of the accounting community 
will have to contribute to that particular effort. We have made 
several strides that will allow us to increase our 
effectiveness and efficiency to identify more individuals.
    For example, our Armed Forces DNA Identification Laboratory 
(AFDIL), have increased their technology where they need 
smaller portions of remains in order to make a DNA match. When 
we go talk about our Service Captured Officers (SCOs), they 
have made improvements on how we look for the family members in 
order to get the family reference samples.
    In our organization, you mention an increase. In 2010, we 
formally were given World War II as a portfolio. That is where 
the increase began. That is where we added some personnel. And, 
again, we will begin seeing and reaping the benefits of that 
very soon. But it is impossible to put an exact timeline on 
that.
    So, I think there are a lot of things moving in the right 
direction to ensure that we are working toward our goal as 
efficiently and as effectively as we possibly can.
    Senator McCaskill. I think you all understand, in this 
environment, if Congress does not start seeing an increase in 
the numbers of remains identified, that the money will go away. 
It just is too hard to find the resources for what we need to 
be doing in the Federal Government that we would substantially 
increase resources for a given problem that does not result in 
more productivity.
    Let us talk about the reasonableness of the numbers and how 
honest and open we are being. This is difficult, because no one 
wants to give up on anyone, and we feel very strongly about 
that as a Nation. I know the current number is 83,000, and my 
understanding is 80 percent of that, 73,000, is World War II. 
And it is my understanding from preparing for this hearing that 
you all have estimated that as many as 58,000 may not be 
recoverable with current technologies, and 40,000 were lost 
over deep water and will never be recoverable.
    Do you believe I have stated those numbers in an honest and 
forthright way?
    General Winfield. Madam Chairman, several groups have 
attempted to determine exactly how many of our missing or 
unknowns are going to be reasonably recovered. What is 
important to note is that we have a requirement from Congress 
to create a case file on each of our missing from World War II. 
We have been working on that. We have about 20,000 at this 
point and we are going to continue to work that. Once we have a 
case file on each individual, we will be able to make a good 
assessment on how many of those will be recoverable, if you 
will. So the analysis will be done and we will be able to give 
you a very accurate figure in the near future.
    Senator McCaskill. Well, is the number correct, that 
approximately 40,000 were lost over deep water?
    General Winfield. To the best of my knowledge, that is 
correct.
    Senator McCaskill. And do we know who those 40,000 are?
    General Winfield. We do have names. We have a list of 
everyone that was missing from World War II.
    Senator McCaskill. And do we know which of those 
individuals were lost over deep water?
    General Winfield. We do, indeed.
    Senator McCaskill. And have we been, do you believe, honest 
and forthright with the families about the chance of recovering 
those remains, the 40,000 deep water?
    General Winfield. We have not released specific names. That 
is one of the recommendations from the GAO, is to create that 
case file and then prioritize the list based on the probability 
of being able to recover those remains.
    Senator McCaskill. Why do you think that we have been as 
reluctant as it appears we have been to be reasonable and 
honest with these families? What favor are we doing them? If we 
know the names and we know it was over deep water and we know 
they are not recoverable, why would we not rush to be honest 
and forthright with these families?
    General Winfield. Ma'am, I had the exact same question when 
I assumed this position, and as I started researching it, what 
I was told was there are a lot of families still holding out 
hope. I mean, we say that they were in a ship, if you will, and 
the ship went down. There are families who believe that there 
may be inaccuracies on who physically was on the ship, if you 
will, and there has been a reluctance to tell the families that 
there is no hope that we are going to find your loved one or be 
able to bring the remains back home.
    I will tell you that one of my agendas is to----
    Senator McCaskill. It seems cruel to me. That just seems 
cruel to me----
    General Winfield. And, Madam Chairman----
    Senator McCaskill. And I do not think that the POW/MIA 
community is unwilling to receive the factual information that 
you have to the best of your ability. I mean, at some point in 
time, is it more cruel to not be honest and forthright that the 
chances of recovering half of the number that you have all been 
tasked with is somewhere close to none from slim? I disagree 
that you are doing these families a favor by not being honest 
and forthright about it.
    General Winfield. Madam Chairman, I agree with you 
totally----
    Senator McCaskill. Then who is keeping you from doing it, 
us?
    General Winfield. No, ma'am. What we have to do is validate 
the information that was provided by the Army Graves 
Registration Service and other services. Once we make that 
validation, we are certainly more than willing to provide that 
information to the families. What we do not want to do is to 
say there is hope and then return a year or two later and say, 
no, there is no hope. So what we want to do is to be accurate 
in our assessment, and that is what we are going to do. That is 
one of my main objectives, is to do just what you have 
described. Once we do the analysis, once we have collected the 
information----
    Senator McCaskill. So you say you are going to wait until 
you have done all of them before you tell any families?
    General Winfield. Absolutely not, ma'am. As soon as we get 
the information on these--as we start working the case files, 
we are going to be in a position to be able to give families 
information about their loved one.
    Senator McCaskill. And when will that begin?
    General Winfield. We have already started the process of 
accumulating the information. The charter that was given to us 
by Congress is to collect all the information that we have on 
each of our missing from World War II. The baseline for that, 
and we are looking at all of the files from those that were 
lost and now we are bringing all of that information together. 
As we do the assessment of that, we are going to start 
providing the information to the families.
    Senator McCaskill. Senator McCain and I have discussed 
this, and I am going to meet with him when we return in 
September to talk about this, but I feel a sense of urgency 
about getting accurate information to these families as quickly 
as possible and I have a feeling that sometimes the 
bureaucratic need to finish a task, combined with pressure from 
Congress, has inadvertently put way too many families in a 
cruel limbo when we could fix that in short order.
    And I am going to try to help with that, to whatever extent 
I can, because you have a lot of work to do that needs to be 
done. If we know that there is work that is impossible to do, 
the sooner that we deal with that, the better.
    General Winfield. And, Madam Chairman, we are working 
toward that end. We do just that for the Southeast Asia 
Conflict or the Vietnam War. We have categorized them. We are 
in the process of doing the same thing for the Korean War. It 
is just a matter of getting to it, and again, as I mentioned 
earlier, it was 2010, NDAA 2010, that formally added World War 
II to our portfolio. So, we are behind. The most mature of our 
efforts, of course, is Vietnam. This is where it all started.
    Senator McCaskill. Yes. OK. Senator Ayotte.
    Senator Ayotte. So, right now, in terms of family members, 
how do they receive information on someone that they have lost? 
Do they have to contact you? Do you contact them? How does that 
happen right now?
    General Winfield. Yes. There is a procedure. Again, this is 
an accounting community effort in pretty much the entire 
process. The communications is done by the Service Casualty 
Officers. We will pass the information to them and they will 
make the presentation to the families. If they have questions, 
the families have questions, information will be passed through 
the Service Casualty Officers and passed to us. We do the 
research, and back and forth is the way that works.
    Senator Ayotte. And I would totally agree with what Senator 
McCaskill said about--I think that families should get whatever 
information that you have, because they deserve this. And when 
you think about particularly our World War II veterans, I know 
it was just added to your statutory duties in 2010, but so many 
of them, obviously now, if you think about the family members, 
the spouses, we are getting to a point where we are losing so 
many of them. And I am sure that the urgency of providing this 
information to their families becomes even greater so that they 
can know and, obviously, just know whatever we know.
    I am really blessed because my Grandfather is a World War 
II veteran. He is 97 years old. He is still with us. So I think 
about so many of them are not going to be with us, and I am 
sure their widows, as well. So there is an urgency to this, and 
whatever we know, they should know.
    I also wanted to followup on this issue that, General, you 
had clarified and said originally, as a result of the 2010 NDAA 
as identified in the GAO report, there came up two different 
plans, one from DPMO, one from JPAC, and now you have settled 
on the JPAC plan and you are on the same page, as I understand 
it. But we have not received anything yet, have we, to my 
knowledge? Because I thought, ultimately, we were going to get 
that report.
    General Winfield. Senator, we did not agree to the JPAC 
plan. Again, the requirement was to create a comprehensive, 
coordinated, integrated, fully funded program----
    Senator Ayotte. Right.
    General Winfield [continuing]. And the JPAC plan and the 
plan that was being forwarded by DPMO did not include all of 
those elements. Since we both----
    Senator Ayotte. So we are not there yet?
    General Winfield. Well, we have created a plan. It is our 
Capacity and Capabilities Plan. That is being formally 
coordinated within DOD as we speak. Once that coordination is 
complete, then we will be able to release it.
    Senator Ayotte. So, when will we receive it?
    General Winfield. I cannot put a time limit on how long it 
takes to get through all the coordination.
    Senator McCaskill. What does that mean? What coordination?
    Senator Ayotte. Yes, exactly. I do not know what 
coordination----
    General Winfield. Yes. Any time we produce a product, it 
has to go through coordination with the different services, the 
Joint Staff, GCM, it goes--yes, ma'am, that is pretty much 
accurate. [Laughter.]
    Senator McCaskill. You are killing me here.
    Senator Ayotte. OK. So we need answers and we need 
leadership on this, and here is the opportunity. When I see 
both of you, General, Mr. Winfield, you have been in your 
positions for about a year--10 months, this is your 
opportunity. You have great challenges, but it is your 
leadership opportunity to get this right, and we want to see 
it, and we want to see it soon. So we are going to be following 
up on this with Dr. Miller and the Secretary because it is not 
clear to me, because, ultimately, I mean, it was the Congress 
who asked you for the report so that we can get this right, 
finally. So that is where our frustration comes from, as you 
can imagine.
    General Winfield. And, Senator, it is important to note 
that the agreement was that we would nest the JPAC plan that 
was accepted and funded into the coordinated plan, and we did 
exactly that. And I think General McKeague would agree that we 
did not lose any elements of his plan----
    Senator Ayotte. Whoever is holding the plan right now, 
produce it.
    General Winfield. Yes, ma'am.
    Senator Ayotte. Up the chain of command. Keep going. Get it 
to us.
    Senator McCaskill. Wherever it is ``nesting,'' we want it 
hatched.
    Senator Ayotte. Yes. No more nesting. No more coordination, 
whatever. Let us see it.
    And I wanted to followup, Mr. Winfield, while you are here, 
just to ask you about Sergeant Bowe Bergdahl. As you know, he 
was captured by the Taliban in June 2009. I know it is, 
obviously, for his family, a very difficult and troubling and 
horrible situation, and just wanted to see where things were 
and what the Defense Department's efforts were there. I know it 
is very challenging.
    General Winfield. Senator, again, Sergeant Bowe Bergdahl 
has our--the Department of Defense's highest priority and we 
are working diligently. What we were working on for the last 
year is to ensure that there is a whole of government approach 
to trying to bring Sergeant Bergdahl home----
    Senator Ayotte. Right, along with the State Department 
and----
    General Winfield. Yes, ma'am, and that----
    Senator Ayotte [continuing]. DOD, and I understand.
    General Winfield. Yes, ma'am, and that is happening now.
    Senator Ayotte. OK.
    General Winfield. So, the effort is there, the focus is 
there, and we have the right people working to try to find 
information and to bring Bowe Bergdahl home to his mother and 
father.
    Senator Ayotte. I just wanted to raise Sergeant Bergdahl in 
today's hearing so that people understand that he is very much 
on our mind----
    General Winfield. Yes, ma'am.
    Senator Ayotte. and from the highest levels of government, 
so thank you.
    Senator McCaskill. I think the most important thing to 
remember is when you all go back to your jobs and you have one 
of those moments where something is supposed to go through a 
process, and that term ``coordination,'' which really means 
``lost in a deep black hole at the Pentagon,'' when you are 
having those days that it has gone somewhere for somebody 
else's eyes and it is supposed to be back, I just want you to 
hear my voice ringing in your head. Get it frickin' done.
    I mean, we are not going to be patient about this. This has 
been a problem for 20 years. And we want the plan. We want the 
reorganization of this effort so there are not so many cooks in 
the kitchen that are in charge, but there is one chef that we 
can blame. If the numbers are not there, if--and, by the way, 
it is going to help you get the resources you need, and when 
you speak with one unified voice, it makes your job so much 
easier.
    Senator Ayotte. Please, hear my voice, too----
    Senator McCaskill. Yes. I mean----
    Senator Ayotte [continuing]. Because our voices will be 
together on this.
    Senator McCaskill. This is going to be ridiculously hard 
for you, because we are like a dog with a bone on this stuff. 
So, you had better get used to this room because you are going 
to be back here a lot if we do not get dates and we do not get 
plans and we do not get something that does not look like a 
professor's test on organizational ability, how you do not do 
it. I mean, this would be a business class--this would be a 
case study of how you make sure that you do not get results and 
accountability.
    And then, briefly, before we close here, I want to just ask 
about the JPAC lab in Nebraska. What purpose is this lab 
serving and how much does it cost?
    General McKeague. Ma'am, we just opened the laboratory at 
Offutt Air Force Base, Nebraska, in June of this year. It 
provides us the additional capacity and capability that was 
identified within the congressional mandate. It cost us a 
little over $5.2 million. We ended up revitalizing and reusing 
an existing facility on the base, and that laboratory annex is 
up and running as of June 1.
    Senator McCaskill. And are they performing identifications?
    General McKeague. Ma'am, they have their first case. It is 
a case from Vietnam. It is a case of 10 disinternments from the 
cemetery in your home State and they are working on that case 
right now.
    Senator McCaskill. Well, that is terrific, and I wanted to 
make sure that they were up and running. And I actually will 
tell you--I will leave on a positive note--$5.2 million sounds 
like a reasonable number in the grand scheme of numbers that I 
look at constantly at the Department of Defense.
    General McKeague. Yes, ma'am. It was a renovation of an 
existing facility, and, again, it provides us a state-of-the-
art facility. I will caveat it that, because of the hiring 
freeze, we only have 14 of the 49 laboratory personnel in the 
building. But we are working with United States Pacific Command 
and DOD on that hiring issue.
    Senator McCaskill. That is great.
    Any other questions from you, Senator Ayotte?
    Senator Ayotte. No. I may have some questions for the 
record. But as the Chair said, we will meet again, so thank you 
all for being here and----
    Senator McCaskill. And I know you all are really trying. I 
mean, our job is to do oversight. Our job is to hold your feet 
to the fire. Our job is to make you accountable, and we are 
going to do that. I understand that you do have a sacred 
mission. I understand that you are dedicated public servants, 
and we do not diminish that service in any way. But we want to 
get this fixed so that our successors years from now are not 
saying, well, why were these Senators so lame? They could not 
get it done when they tried----
    Senator Ayotte. Right.
    Senator McCaskill [continuing]. Back in 2013. Thank you all 
very much.
    Senator Ayotte. Thank you, and thank you. I think you have 
great leadership opportunities here, as well, and your service 
records will bring--we thank you for your distinguished service 
records to be the right leader needed at the right time to get 
this right for the American people, so thank you.
    Senator McCaskill. Thank you. The hearing is adjourned.
    [Whereupon, at 11:54 a.m., the Subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T2747.001

[GRAPHIC] [TIFF OMITTED] T2747.002

[GRAPHIC] [TIFF OMITTED] T2747.003

[GRAPHIC] [TIFF OMITTED] T2747.004

[GRAPHIC] [TIFF OMITTED] T2747.005

[GRAPHIC] [TIFF OMITTED] T2747.006

[GRAPHIC] [TIFF OMITTED] T2747.007

[GRAPHIC] [TIFF OMITTED] T2747.008

[GRAPHIC] [TIFF OMITTED] T2747.009

[GRAPHIC] [TIFF OMITTED] T2747.010

[GRAPHIC] [TIFF OMITTED] T2747.011

[GRAPHIC] [TIFF OMITTED] T2747.012

[GRAPHIC] [TIFF OMITTED] T2747.013

[GRAPHIC] [TIFF OMITTED] T2747.014

[GRAPHIC] [TIFF OMITTED] T2747.015

[GRAPHIC] [TIFF OMITTED] T2747.016

[GRAPHIC] [TIFF OMITTED] T2747.017

[GRAPHIC] [TIFF OMITTED] T2747.018

[GRAPHIC] [TIFF OMITTED] T2747.019

[GRAPHIC] [TIFF OMITTED] T2747.020

[GRAPHIC] [TIFF OMITTED] T2747.096

[GRAPHIC] [TIFF OMITTED] T2747.021

[GRAPHIC] [TIFF OMITTED] T2747.022

[GRAPHIC] [TIFF OMITTED] T2747.024

[GRAPHIC] [TIFF OMITTED] T2747.025

[GRAPHIC] [TIFF OMITTED] T2747.026

[GRAPHIC] [TIFF OMITTED] T2747.023

[GRAPHIC] [TIFF OMITTED] T2747.027

[GRAPHIC] [TIFF OMITTED] T2747.028

[GRAPHIC] [TIFF OMITTED] T2747.029

[GRAPHIC] [TIFF OMITTED] T2747.030

[GRAPHIC] [TIFF OMITTED] T2747.031

[GRAPHIC] [TIFF OMITTED] T2747.032

[GRAPHIC] [TIFF OMITTED] T2747.033

[GRAPHIC] [TIFF OMITTED] T2747.034

[GRAPHIC] [TIFF OMITTED] T2747.035

[GRAPHIC] [TIFF OMITTED] T2747.036

[GRAPHIC] [TIFF OMITTED] T2747.037

[GRAPHIC] [TIFF OMITTED] T2747.038

[GRAPHIC] [TIFF OMITTED] T2747.039

[GRAPHIC] [TIFF OMITTED] T2747.040

[GRAPHIC] [TIFF OMITTED] T2747.041

[GRAPHIC] [TIFF OMITTED] T2747.042

[GRAPHIC] [TIFF OMITTED] T2747.043

[GRAPHIC] [TIFF OMITTED] T2747.044

[GRAPHIC] [TIFF OMITTED] T2747.045

[GRAPHIC] [TIFF OMITTED] T2747.046

[GRAPHIC] [TIFF OMITTED] T2747.047

[GRAPHIC] [TIFF OMITTED] T2747.048

[GRAPHIC] [TIFF OMITTED] T2747.049

[GRAPHIC] [TIFF OMITTED] T2747.050

[GRAPHIC] [TIFF OMITTED] T2747.051

[GRAPHIC] [TIFF OMITTED] T2747.052

[GRAPHIC] [TIFF OMITTED] T2747.053

[GRAPHIC] [TIFF OMITTED] T2747.054

[GRAPHIC] [TIFF OMITTED] T2747.055

[GRAPHIC] [TIFF OMITTED] T2747.056

[GRAPHIC] [TIFF OMITTED] T2747.057

[GRAPHIC] [TIFF OMITTED] T2747.058

[GRAPHIC] [TIFF OMITTED] T2747.059

[GRAPHIC] [TIFF OMITTED] T2747.060

[GRAPHIC] [TIFF OMITTED] T2747.061

[GRAPHIC] [TIFF OMITTED] T2747.062

[GRAPHIC] [TIFF OMITTED] T2747.063

[GRAPHIC] [TIFF OMITTED] T2747.064

[GRAPHIC] [TIFF OMITTED] T2747.065

[GRAPHIC] [TIFF OMITTED] T2747.066

[GRAPHIC] [TIFF OMITTED] T2747.067

[GRAPHIC] [TIFF OMITTED] T2747.068

[GRAPHIC] [TIFF OMITTED] T2747.069

[GRAPHIC] [TIFF OMITTED] T2747.070

[GRAPHIC] [TIFF OMITTED] T2747.071

[GRAPHIC] [TIFF OMITTED] T2747.072

[GRAPHIC] [TIFF OMITTED] T2747.073

[GRAPHIC] [TIFF OMITTED] T2747.074

[GRAPHIC] [TIFF OMITTED] T2747.075

[GRAPHIC] [TIFF OMITTED] T2747.076

[GRAPHIC] [TIFF OMITTED] T2747.077

[GRAPHIC] [TIFF OMITTED] T2747.078

[GRAPHIC] [TIFF OMITTED] T2747.079

[GRAPHIC] [TIFF OMITTED] T2747.080

[GRAPHIC] [TIFF OMITTED] T2747.081

[GRAPHIC] [TIFF OMITTED] T2747.082

[GRAPHIC] [TIFF OMITTED] T2747.083

[GRAPHIC] [TIFF OMITTED] T2747.084

[GRAPHIC] [TIFF OMITTED] T2747.085

[GRAPHIC] [TIFF OMITTED] T2747.086

[GRAPHIC] [TIFF OMITTED] T2747.087

[GRAPHIC] [TIFF OMITTED] T2747.088

[GRAPHIC] [TIFF OMITTED] T2747.089

[GRAPHIC] [TIFF OMITTED] T2747.090

[GRAPHIC] [TIFF OMITTED] T2747.091

[GRAPHIC] [TIFF OMITTED] T2747.092

[GRAPHIC] [TIFF OMITTED] T2747.093

[GRAPHIC] [TIFF OMITTED] T2747.094

[GRAPHIC] [TIFF OMITTED] T2747.095

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
